 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


  Fiscal Year 2005 Evaluation of the Social
Security Administration's Compliance with the
Federal Information Security Management Act




                  A-14-05-15060



 September 2005   Patrick P. O’Carroll, Jr. – Inspector General
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 16, 2005                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Fiscal Year 2005 Evaluation of the Social Security Administration’s Compliance with the
        Federal Information Security Management Act (A-14-05-15060)


        OBJECTIVE

        Our objective was to determine if the Social Security Administration’s (SSA) overall
        security program and practices complied with the requirements of the Federal
        Information Security Management Act of 2002 (FISMA).1

        BACKGROUND

        FISMA provides the framework for securing the Federal Government’s information
        technology including both unclassified and national security systems. All agencies must
        implement the requirements of FISMA and report annually to the Office of Management
        and Budget (OMB) and Congress on the effectiveness of their security programs.

        OMB uses the information to help evaluate agency-specific and government-wide
        security performance, develop its annual security report to Congress, assist in
        improving and maintaining adequate agency security performance, and inform
        development of the eGovernment (eGov) Scorecard under the President’s Management
        Agenda (PMA).

        OMB developed a traffic light scorecard to show the progress agencies have made:
        green for success, yellow for mixed results, and red for unsatisfactory. SSA’s current
        status is yellow and its score for progress in implementing eGov services is green.
        Many of the elements of the eGov initiative overlap or duplicate the requirements of
        FISMA. In our results of review, we highlight when the FISMA issue also impacts
        whether the Agency can meet the eGov security requirements. See Appendix C for
        more background.




        1
            Public Law 107-347, Title III, section 301.
Page 2 – The Commissioner


SCOPE AND METHODOLOGY
FISMA directs each agency’s Office of the Inspector General (OIG) to perform an
annual, independent evaluation of the agency’s information security program and
practices.2 SSA’s OIG contracted with PricewaterhouseCoopers, LLP (PwC) to audit
SSA’s Fiscal Year (FY) 2005 financial statements.3 Because of the extensive internal
control system work that is completed as part of that audit, our FISMA review
requirements were incorporated into the PwC financial statement audit contract. This
evaluation included reviews of SSA’s mission critical sensitive systems as described in
the Government Accountability Office’s Federal Information System Controls Audit
Manual. PwC performed an “agreed-upon procedures” engagement using FISMA,
OMB and the National Institute of Standards and Technology (NIST) guidance, and
other relevant security laws and regulations as a framework to complete the required
OIG review of SSA’s information security program and its sensitive systems.4 See
Appendix D for more details on our Scope and Methodology.

SUMMARY OF RESULTS
During our FY 2005 FISMA evaluation, we determined that SSA has generally met the
requirements of FISMA. SSA continues to work towards maintaining a secure
environment for its information and systems and has made improvements over the past
year to further strengthen its compliance with FISMA. Among the elements of its secure
environment are sound remediation, certification and accreditation, and inventory
processes. To fully meet the requirements of FISMA and enhance information
management in this area, SSA should:
•   Fully comply with the Agency’s risk models and configuration guides;
•   Ensure that the Continuity of Operations Plan (COOP) is updated and tested
    appropriately;
•   Improve monitoring of contractor security awareness training; and
•   Formalize the policy and procedures for maintaining the systems inventory.

SSA’S REMEDIATION, CERTIFICATION AND ACCREDITATION, AND INVENTORY
PROCESSES ARE PERFORMING ADEQUATELY

During FY 2004, SSA implemented a software tool, Automated Security Self-Evaluation
and Remediation Tracking (ASSERT), to monitor and report system security
weaknesses. ASSERT also tracks the remediation process for those weaknesses.
SSA continues to effectively monitor its remediation process through the use of the

2
  Public Law 107-347, Title III, section 301, 44 U.S.C. §3545 (b)(1).
3
  OIG Contract Number GS-23F-0165N, dated March 16, 2001. FY 2005 option was exercised on
November 29, 2004.
4
  OMB Memorandum M-05-15, FY 2005 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, June 13, 2005 and NIST Special Publication 800-26,
Security Self-Assessment Guide for Information Technology Systems, November 2001.
Page 3 – The Commissioner


ASSERT software tool in accordance with FISMA and OMB FISMA guidance.5
Currently, ASSERT properly tracks over 50 security weaknesses. None of the
weaknesses tracked in ASSERT were reported to OMB in SSA’s second and third
quarter reports during FY 2005. Although the Agency has a Financial Statement
reportable condition6 to improve its protection of information, the Agency chose to only
report weaknesses for January through June 2005 to OMB based on the OMB FISMA
guidance definition of significant deficiency.7 OIG works with the Office of the Chief
Information Officer to ensure that the ASSERT database is complete and corrective
actions are undertaken to remediate the security weaknesses.

SSA, in FY 2004, completed an inventory of all systems and subsystems consisting of
20 major systems as well as over 300 subsystems. SSA updated the systems inventory
in FY 2005 and based on our review, it appears to be complete. As of September 2005,
SSA did not have a policy to update its systems inventory. Such a policy is needed to
effectively update and maintain the systems inventory. The Agency is in the process of
developing this policy.

SSA prepared Certifications and Accreditations (C&A) for each of the 20 major systems
in accordance with NIST Special Publication 800-37. We reviewed the 20 C&As for the
major systems. During the course of our audit, we did note several outdated items in
one of the C&As. These items were brought to the Agency’s attention and immediately
corrected. Nothing came to our attention that led us to believe that there were any
significant omissions from the C&A process. As a result, over 90 percent of the
Agency’s major systems and subsystems were covered by the C&As. See Appendix E
for the complete list of major systems that were certified and accredited in FY 2005.

The successful implementation of these security measures has helped SSA maintain a
sound security program that complies with FISMA.

SYSTEMS NEED TO FULLY COMPLY WITH SECURITY CONFIGURATIONS

OMB FISMA guidance and the PMA management scorecard requires agencies to
develop configuration standards for their Information Technology (IT) systems and have
the systems installed and maintained in accordance with these security configuration
standards.8 SSA developed risk models for all operating systems used in its networks.


5
  Public Law 107-347, Title III, section 301, 44 U.S.C. §3544 (b)(6) and OMB Memorandum M-05-15,
FY 2005 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, June 13, 2005.
6
  SSA’s FY 2004 Performance and Accountability Report, page 212.
7
  OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security
Management Act, (page 8) states that a significant deficiency under FISMA is comparable to a material
weakness under the Federal Managers Financial Integrity Act.
8
  OMB Memorandum M-05-15, FY 2005 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, June 13, 2005, pages 15-17 and 23-25 and PMA
scorecard standards at http://www.whitehouse.gov/results/agenda/standards.pdf as of August 18, 2005,
page 4.
Page 4 – The Commissioner


In addition, SSA is developing a single configuration guide for all other system
components and a separate appendix for various components such as Oracle.

It was observed that the Office of the Actuary had a small number of Linux servers that
were connected to the SSA network for most of FY 2005. SSA does not have any risk
models for the Linux operating system. SSA has decided to take the Linux servers off
the system since they do not have any risk models for Linux. The plan is to have Linux
servers removed from the SSA network and out of operation by September 30, 2005.
They will be replaced with servers for which SSA has risk models.

To determine compliance with the Agency’s risk models, we tested a number of servers
for the Unix and Windows 2000 operating systems. The results of our testing disclosed
instances of noncompliance with the risk models or configuration guide. Computers that
are not in compliance with the Agency risk models are more vulnerable to security
threats imposed by hackers, computer viruses, worms, and denial of service attacks.
By ensuring that Agency computers are in compliance with their risk models, SSA can
better secure the valuable information that has been entrusted to its care.

SSA CONTINUITY OF OPERATIONS TESTING

FISMA codifies a longstanding policy requirement that each agency’s security program
and security plan include the provision for a COOP for information systems that support
the operations and assets of the agency.9 Additionally, the eGov initiatives require
agencies to consolidate and optimize all infrastructures for their COOPs.10 SSA did
participate in the Governmentwide COOP exercise in June 2005. This desk top review
included a test of all the major information systems and met the OMB requirement for
an annual contingency test.

SSA continues to address its COOP and Disaster Recovery Exercise (DRE) issues for
the entire Agency. SSA needs to make certain that both COOP and DRE are updated
annually to ensure the Agency can adequately function in the event of an emergency or
disaster. Specifically, the Agency should add new applications, such as Internet and
Intranet and other important systems to the COOP and DRE. For the past several
years, SSA performed an annual week-long DRE in May or June. During the exercises,
the major systems were tested to see if they would perform in the event of a disaster.
The Agency’s last DRE was in June 2004. This year, the Agency postponed its DRE
until January or February 2006 because it felt, and we concurred, that it would be better
to expand the test into a 2-week exercise. The Agency’s DRE contractor was unable to
accommodate SSA until 2006.

Furthermore, the COOP did not address information and information systems provided
or managed by other agencies, contractors or other sources. For example, SSA relies
heavily upon other Federal and State Government agencies such as State Disability
Determination Services and the Department of Treasury. In the event of a disaster,

9
    Public Law 107-347, Title III, section 301, 44 U.S.C § 3544(b)(8)).
10
     http://www.whitehouse.gov/results/agenda/standards.pdf as of August 18, 2005, page 4.
Page 5 – The Commissioner


SSA is uncertain as to the availability of these agencies. SSA should ensure that its
COOP is updated and tested appropriately.11

SSA NEEDS TO BETTER MONITOR CONTRACTOR SECURITY AWARENESS AND
TRAINING

SSA provides security awareness training to all employees and information security
training to employees with specialized security responsibilities. SSA modified its
systems to more accurately track the IT security training provided to each employee.
According to OMB’s guidance, agencies are required to ensure that contractors with
significant security responsibility have security awareness and specialized training.12
The Agency has numerous contractors who perform major IT security tasks such as
monitoring firewalls. Some of these contractors have received security awareness
training and specialized security training, but SSA does not fully monitor or review the
security awareness or specialized training of all contractors. All contractors who have
access to SSA systems should have an annual security awareness training to ensure
that they are knowledgeable of the importance of protecting SSA’s sensitive information.
Contractors who perform technical IT security functions should receive specialized
training on a regular basis. SSA should consider monitoring its contractors better to
ensure that they have adequate security awareness and specialized systems training.

CONCLUSION AND RECOMMENDATIONS

During our FY 2005 FISMA evaluation, we determined that SSA generally met the
requirements of FISMA. SSA worked cooperatively with the OIG to identify ways to
comply with FISMA. SSA developed and implemented a wide range of security policies,
plans, and practices to safeguard its systems, operations, and assets. To fully comply
and ensure future compliance with FISMA and other information security related laws
and regulations, we recommend SSA:
1. Ensure all computers and servers comply with Agency’s risk models and
   configuration guides;
2. Ensure that the COOP is updated and tested appropriately;
3. Improve monitoring of contractor security awareness training; and
4. Formalize policy and procedures for maintaining the systems inventory.



                                                    S
                                                    Patrick P. O’Carroll, Jr.

11
   Federal Emergency Management Agency Federal Preparedness Circular 65, Federal Executive Branch
Continuity of Operations (COOP), June 15, 2004, pages 1, 4, 8, 9 and I-1.
12
   OMB Memorandum M-05-15, FY 2005 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, June 13, 2005, page 15.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General’s Completion of OMB Questions
             concerning Social Security Administration’s Compliance with the
             Federal Information Security Management Act

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – Systems Certified and Accredited in Fiscal Year 2005

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ASSERT     Automated Security Self-Evaluation and Remediation Tracking
C&A        Certification and Accreditation
CIO        Chief Information Officer
COOP       Continuity of Operations Plan
DRE        Disaster Recovery Exercise
eGov       eGovernment
FIPS       Federal Information Processing Standards
FISMA      Federal Information Security Management Act
FY         Fiscal Year
IG         Inspector General
IT         Information Technology
NIST       National Institute of Standards and Technology
OIG        Office of the Inspector General
OMB        Office of Management and Budget
PMA        President’s Management Agenda
POA&M      Plan of Action and Milestones
PwC        PricewaterhouseCoopers LLP
SSA        Social Security Administration
US-CERT    United States Computer Emergency Readiness Team
                                                                                  Appendix B

Office of the Inspector General’s Completion of OMB
Questions Concerning Social Security
Administration’s Compliance with the Federal
Information Security Management Act
                                       Section C: Inspector General

                              Agency Name: Social Security Administration
                                                 Question 1

1. As required in FISMA, the IG shall evaluate a representative subset of systems, including
information systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not
categorized) and by bureau, identify the number of systems reviewed in this evaluation for each
classification below (a., b., and c.).

To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
1) Continue to use NIST Special Publication 800-26, or,
2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53.
Agencies are responsible for ensuring the security of information systems used by a contractor of their agency
or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may
be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                             a.                       b.                        c.
                                       FY 05 Agency            FY 05 Contractor       FY 05 Total Number of
                                         Systems                   Systems                   Systems
                    FIPS 199
                   Risk Impact      Total       Number         Total     Number        Total        Number
Bureau Name           Level        Number      Reviewed       Number    Reviewed      Number       Reviewed
                   High                   0              0          0             0          0              0
Social Security
                   Moderate               7              7          0             0          7              7
Administration
                   Low                   13             13          0             0         13             13
                   Not
                   Categorized            0              0          0             0          0              0
                   Sub-total             20             20          0             0         20             20
Agency Totals      High                   0               0         0             0           0               0
                   Moderate               7               7         0             0           7               7
                   Low                   13             13          0             0         13             13
                   Not
                   Categorized            0               0         0             0           0               0
                   Total                 20             20          0             0         20             20




                                              B-1
2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau,
in the format provided below. From the representative subset of systems evaluated, identify the
number of systems which have completed the following: have a current certification and accreditation,
a contingency plan tested within the past year, and security controls tested within the past year.



                                             Question 2
                                        a.                     b.                        c.
                                    Number of        Number of systems         Number of systems for
                                 systems certified    for which security      which contingency plans
                                  and accredited     controls have been          have been tested in
                                                    tested and evaluated       accordance with policy
                                                        in the last year           and guidance


                   FIPS 199
                  Risk Impact     Total     Percent     Total    Percent of     Total       Percent of
Bureau Name          Level       Number     of Total   Number      Total       Number         Total
                  High                  0      0.0%          0        0.0%              0          0.0%
Social Security   Moderate              7   100.0%           7      100.0%              7       100.0%
Administration
                  Low                 13    100.0%          13      100.0%            13        100.0%
                  Not
                  Categorized           0      0.0%          0        0.0%              0          0.0%
                  Sub-total           20    100.0%          20      100.0%            20        100.0%
Agency Totals     High                  0      0.0%          0         0.0%             0          0.0%
                  Moderate              7   100.0%           7      100.0%              7       100.0%
                  Low                 13    100.0%          13      100.0%            13        100.0%
                  Not
                  Categorized           0      0.0%          0         0.0%             0          0.0%
                  Total               20    100.0%          20      100.0%            20        100.0%




                                             B-2
                                                Question 3


In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

          The agency performs oversight and evaluation to ensure information
          systems used or operated by a contractor of the agency or other
          organization on behalf of the agency meet the requirements of FISMA,
          OMB policy and NIST guidelines, national security policy, and agency
          policy. Self-reporting of NIST Special Publication 800-26 requirements
          by a contractor or other organization is not sufficient, however, self-    Almost Always, for
          reporting by another Federal agency may be sufficient.                     example,
  3.a.
                                                                                     approximately 96-
          Response Categories:                                                       100% of the time
               - Rarely, for example, approximately 0-50% of the time
               - Sometimes, for example, approximately 51-70% of the time
               - Frequently, for example, approximately 71-80% of the time
               - Mostly, for example, approximately 81-95% of the time
               - Almost Always, for example, approximately 96-100% of the time

          The agency has developed an inventory of major information systems
          (including major national security systems) operated by or under the
          control of such agency, including an identification of the interfaces
          between each such system and all other systems or networks, including
          those not operated by or under the control of the agency.
                                                                                     Approximately 96-
  3.b.
          Response Categories:                                                       100% complete
               - Approximately 0-50% complete
               - Approximately 51-70% complete
               - Approximately 71-80% complete
               - Approximately 81-95% complete
               - Approximately 96-100% complete

          The OIG generally agrees with the CIO on the number of agency owned
  3.c.                                                                                         Yes
          systems.


          The OIG generally agrees with the CIO on the number of information
  3.d.    systems used or operated by a contractor of the agency or other                      Yes
          organization on behalf of the agency.


  3.e.    The agency inventory is maintained and updated at least annually.                    Yes


  3.f.    The agency has completed system e-authentication risk assessments.                   Yes




                                               B-3
                                                  Question 4


Through this question, and in the format provided below, assess whether the agency has developed,
implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the
degree to which the following statements reflect the status in your agency by choosing from the responses
provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                      The POA&M is an agency wide process,
                      incorporating all known IT security
                      weaknesses associated with information      - Almost Always, for example,
          4.a.
                      systems used or operated by the agency      approximately 96-100% of the time
                      or by a contractor of the agency or other
                      organization on behalf of the agency.

                      When an IT security weakness is
                      identified, program officials (including
                                                                  - Almost Always, for example,
          4.b.        CIOs, if they own or operate a system)
                                                                  approximately 96-100% of the time
                      develop, implement, and manage
                      POA&Ms for their system(s).

                      Program officials, including contractors,
                      report to the CIO on a regular basis (at    - Almost Always, for example,
          4.c.
                      least quarterly) on their remediation       approximately 96-100% of the time
                      progress.

                      CIO centrally tracks, maintains, and
                                                                  - Almost Always, for example,
          4.d.        reviews POA&M activities on at least a
                                                                  approximately 96-100% of the time
                      quarterly basis.

                      OIG findings are incorporated into the      - Almost Always, for example,
          4.e.
                      POA&M process.                              approximately 96-100% of the time
                      POA&M process prioritizes IT security
                      weaknesses to help ensure significant IT
                                                                  - Almost Always, for example,
          4.f.        security weaknesses are addressed in a
                                                                  approximately 96-100% of the time
                      timely manner and receive appropriate
                      resources
Comments:




                                                 B-4
                                                    Question 5


OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a
qualitative assessment of the agency’s certification and accreditation process, including adherence to existing
policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the
Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and
accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards
for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as
well as associated NIST documents used as guidance for completing risk assessments and security plans .



               Assess the overall quality of the
               Department's certification and
               accreditation process.

               Response Categories:
                                                          - Excellent
                    - Excellent
                    - Good
                    - Satisfactory
                    - Poor
                    - Failing


Comments:




                                                   Question 6
           Is there an agency wide security configuration policy?
  6.a.     Yes or No.
                                                                                              Yes

           Comments:




                                                   B-5
          Configuration guides are available for the products listed below. Identify which software is
          addressed in the agency wide security configuration policy. Indicate whether or not any
 6.b.
          agency systems run the software. In addition, approximate the extent of implementation
          of the security configuration policy on the systems running the software.
                                                       Approximate the extent of implementation of
                                                       the security configuration policy on the
                                                       systems running the software.

                                                       Response choices include:
                                                       - Rarely, or, on approximately 0-50% of the
                                           Do any        systems running this software
        Product                                        - Sometimes, or on approximately 51-70% of
                        Addressed in      agency
                                                         the systems running this software
                        agencywide        systems
                                                       - Frequently, or on approximately 71-80% of
                          policy?         run this       the systems running this software
                                         software?     - Mostly, or on approximately 81-95% of the
                                                         systems running this software
                          Yes, No,                     - Almost Always, or on approximately 96-
                           or N/A.       Yes or No.    100% of the systems running this software
Windows XP                                             Almost Always, or on approximately 96-100% of
                             Yes             Yes
Professional                                           the systems running this software
                                                       Almost Always, or on approximately 96-100% of
Windows NT                   Yes             Yes
                                                       the systems running this software
Windows 2000                                           Almost Always, or on approximately 96-100% of
                             Yes             Yes
Professional                                           the systems running this software
Windows 2000                                           Almost Always, or on approximately 96-100% of
                             Yes             Yes
Server                                                 the systems running this software
Windows 2003                                           Almost Always, or on approximately 96-100% of
                             Yes             Yes
Server                                                 the systems running this software
                                                       Mostly, or on approximately 81-95% of the
Solaris                      Yes             Yes
                                                       systems running this software
                                                       Mostly, or on approximately 81-95% of the
HP-UX                        Yes             Yes
                                                       systems running this software
                                                       Rarely, or, on approximately 0-50% of the
Linux                         No             Yes
                                                       systems running this software
                                                       Almost Always, or on approximately 96-100% of
Cisco Router IOS             Yes             Yes
                                                       the systems running this software
                                                       Almost Always, or on approximately 96-100% of
Oracle                       Yes             Yes
                                                       the systems running this software
Other: IBM AS/400                                      Almost Always, or on approximately 96-100% of
                             Yes             Yes
(AIX), IBM zOS                                         the systems running this software
Comments: SSA is in the upper level of this range for Solaris and HP-UX. The significant
risk items for these systems should be addressed by September 20, 2005 according to the
Agency. Additionally, Linux is not the operating system for any of SSA's 20 Major
Applications or General Support Systems, but Linux was deployed on a limited number of
personal computers connected to SSA's network for the past several years. Upon
discovery of this system, SSA OCIO granted an exception waiver in August 2005 to allow
the use of this operating system on a temporary basis. It is anticipated the Linux operating
system will be removed from these computers by September 30, 2005.

                                            B-6
                                                   Question 7

    Indicate whether or not the following policies and procedures are in place at your agency. If
    appropriate or necessary, include comments in the area provided below.

             The agency follows documented policies and procedures
     7.a.    for identifying and reporting incidents internally.                               Yes
             Yes or No.

             The agency follows documented policies and procedures
     7.b.    for external reporting to law enforcement authorities.                            Yes
             Yes or No.
          The agency follows defined procedures for reporting to the
          United States Computer Emergency Readiness Team
     7.c.                                                                                      Yes
          (US-CERT). http://www.us-cert.gov
          Yes or No.
    Comments:



                                                   Question 8
             Has the agency ensured security training and awareness of all
             employees, including contractors and those employees with
             significant IT security responsibilities?
                                                                                           Mostly, or
             Response Choices include:                                                     approximately 81-
      8      - Rarely, or, approximately 0-50% of employees have sufficient training       95% of employees
             - Sometimes, or approximately 51-70% of employees have sufficient training    have sufficient
             - Frequently, or approximately 71-80% of employees have sufficient training   training1
             - Mostly, or approximately 81-95% of employees have sufficient training
             - Almost Always, or approximately 96-100% of employees have sufficient
             training




                                                   Question 9



             Does the agency explain policies regarding peer-to-peer file
             sharing in IT security awareness training, ethics training, or any
      9                                                                                           Yes
             other agency wide training?
             Yes or No.



1
    SSA is in the upper level of this range.
                                                  B-7
                                                                                  Appendix C

Background and Current Security Status
The Federal Information Security Management Act (FISMA) requires agencies to create
protective environments for their information systems. It does so by creating a
framework for annual Information Technology (IT) security reviews, vulnerability
reporting, and remediation planning.1 Since 1997, the Social Security Administration
(SSA) has had an internal controls reportable condition concerning its protection of
information.2 The resolution of this reportable condition remains a priority for the
Agency. SSA is working with the Office of the Inspector General (OIG) and
PricewaterhouseCoopers LLP (PwC) to develop an approach to resolve this reportable
condition and other issues that were observed during the past FISMA reviews.

In August 2001, the President’s Management Agenda (PMA) was initiated to improve
the management and performance of Government. The PMA’s guiding principles are
that Government services should be citizen-centered, results-oriented, and market
based. The Office of Management and Budget (OMB) developed a traffic light
scorecard to show the progress agencies made: green for success, yellow for mixed
results, and red for unsatisfactory. One of the five governmentwide initiatives is to
increase the number of Government services available to the public electronically,
through the Internet. This initiative is known as expanding Electronic Government or
eGov. SSA’s current status is yellow and its score for progress in implementing eGov
services is green. FISMA requires agencies to take a risk-based, cost-effective
approach to securing their information and systems, and assists Federal agencies in
meeting their responsibilities under the PMA. FISMA authorizes the National Institute of
Standards and Technology to develop standards for Agency systems and security
programs.3 SSA has committed significant resources on getting to green on the eGov
initiative.

According to the standards of the PMA, the following five security actions must occur for
an Agency to reach and maintain green on its Expanding e-Gov Scorecard:

    •   Submit quarterly status reports to remediate IT security weaknesses;
    •   Have the OIG verify the effectiveness of the Department-wide IT Security
        Remediation Process;
    •   Have 100 percent of all IT systems properly secured (certified and accredited);
    •   Install IT systems in accordance with security configurations; and
    •   Consolidate and optimize all infrastructures for the Continuity of Operations
        Plan.4

1
  Public Law 107-347, Title III, section 301, 44 U.S.C §3544.
2
  SSA’s FY 2004 Performance and Accountability Report, page 212.
3
  Public Law 107-347, Title III, section 301, 44 U.S.C §3543 (a)(3).
4
  http://www.whitehouse.gov/results/agenda/standards.pdf as of August 18, 2005.
                                                                         Appendix D

Scope and Methodology
The Federal Information Security Management Act (FISMA) directs each agency’s
Office of the Inspector General (OIG) to perform an annual, independent evaluation of
the agency’s information security program and practices, as well as a review of an
appropriate subset of agency systems.1 The Social Security Administration (SSA) OIG
contracted with PricewaterhouseCoopers LLP (PwC) to audit SSA’s Fiscal Year (FY)
2005 financial statements. Because of the extensive internal control system work that is
completed as part of that audit, our FISMA review requirements were incorporated into
the PwC financial statement audit contract. This evaluation included Federal
Information System Controls Audit Manual-level reviews of SSA’s mission critical
sensitive systems. PwC performed an “agreed-upon procedures” engagement using
FISMA, the Office of Management and Budget (OMB) Memorandum M-05-15, FY 2005
Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, National Institute of Standards and Technology guidance,
and other relevant security laws and regulations as a framework to complete the OIG
required review of SSA’s information security program and practices and its sensitive
systems.

As part of our evaluation, we considered the security implication of the President’s
Management Agenda, the Electronic Government initiative. Additionally, we reviewed
SSA’s FISMA Privacy Report, PwC’s response to the OMB FISMA questions and the
supporting documentation

The results of our FISMA evaluation are based on the PwC FY 2005 FISMA Agreed-
Upon Procedures report and working papers, various audits and evaluations performed
by this office. We also reviewed the final draft of SSA's FY 2005 Security Program
Review as required by the Federal Information Security Management Act .

Our major focus was an evaluation of SSA’s plan of action and milestones (POA&M),
risk models and configuration settings, certifications and accreditations (C&A), and
systems inventory processes. Our evaluation of SSA’s POA&Ms included an analysis
of Automated Security Self-Evaluation and Remediation Tracking system and its
policies. Our review of the Agency’s C&A process included an analysis of all twenty
C&As for each major system. We also reviewed SSA’s updated systems inventory and
the policy for the update processes.

We performed field work at SSA facilities nationwide from March through September
2005. Our evaluation was performed in accordance with generally accepted
government auditing standards.




1
    Public Law 107-347, Title III, section 301, 44 U.S.C §3545 (b)(1).
                                                                      Appendix E

Systems Certified and Accredited in FY 2005
#                             System                                  Acronym
                 General Support Systems
1   Audit Trail System                                        ATS
2   Comprehensive Integrity Review Process                    CIRP

3   Death Alert Control & Update System                       DACUS

4   Debt Management System                                    DMS

5   Disability Case Adjudication and Review System            DICARS

6   Disability Control File System                            DCFS

7   Enterprise Wide Area Network and Services System          EWANSS
8   FALCON Data Entry System                                  FALCON

9   Human Resources Management Information System             HRMIS

10 Integrated Client Database                                 ICDB

11 Logiplex Security Access Systems                           LSAS

12 Recovery of Overpayments, Accounting, & Reporting System   ROAR

13 Social Security Online Accounting and Reporting System     SSOARS

14 Social Security Unified Measurement Systems                SUMS

                      Major Applications
1   Electronic Disability System                              eDib
2   Earnings Record Maintenance System                        ERMS
3   Retirement, Survivors & Disability Insurance System –     RSDI – Accounting
    Accounting
4   SSN Establishment & Correction System                     SSNECS
5   Supplemental Security Income Records Maintenance System   SSIRMS

6   Title II System
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

Kitt Winter, Director, Data Analysis and Technology Audit Division (410) 965-9702

Phil Rogofsky, Audit Manager (410) 965-9719

Acknowledgments

In addition to the persons named above:

Grace Chi, Auditor

Mary Ellen Fleischman, Senior Program Analyst

Harold Hunter, Senior Auditor

Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-05-15060.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
